  Report No. D-2009-093             July 15, 2009




Ship Utilization in Support of the Global War on Terror
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
GWOT                  Global War on Terror
IG                    Inspector General
LMSR                  Large, Medium-Speed, Roll-on/Roll-off
MSC                   Military Sealift Command
USD(AT&L)             Office of the Under Secretary of Defense, Acquisition,
                        Technology, and Logistics
RDD                   Required Delivery Date
RRF                   Ready Reserve Force
SDDC                  Surface Deployment and Distribution Command
SWA                   Southwest Asia
USC                   Universal Services Contract
USTRANSCOM            United States Transportation Command
VISA                  Voluntary Intermodal Sealift Agreement
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                           ARUNGTON, VIRGINIA 22202-4704



                                                                             July 15,2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              COMMANDER, UNITED STATES TRANSPORTATION
                 COMMAND

SUBJECT: Ship Utilization in Support of the Global War on Terror (Report
         No. D-2009-093)

We are providing this report for review and comment. We considered management
comments on a draft of this report from the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics, and the United States Transportation Command
when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. We
received comments from the Deputy Under Secretary of Defense for Logistics and
Materiel Readiness and the Chief of Staff, United States Transportation Command to
recommendations made in this report. Deputy Under Secretary comments to
Recommendations A. La., and A.I.b. were responsive and no further comments are
required. Chief of Staff comments on Recommendations A.2.a., A.2.b., A.2.c., and
A.2.e., and C. were partially responsive to the extent that they did not include
implementation dates to the agreed-upon aetions. We request additional comments from
the Chief of Staff on those recommendations regarding dates of implementation. In
addition, Chief of Staff comments on Recommendation B. were partially responsive and
comments to Recommendation A.2.d. were not responsive. Therefore, we request
additional comments to those recommendations by the United States Transportation
Command by August 14,2009.

If possible, send your comments in electronic format (Adobe Acrobat file only) to
audacm@dodig.miL Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the I Signed I symbol
in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9071.


                                          ~~.~
                                             Bruce A. Burton
                                             Deputy Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2009-093 (Project No. D2008-D000AB-0193.000)                         July 15, 2009

               Results in Brief: Ship Utilization in Support of the Global
               War on Terror
                                                      DoD Instruction 4500.57 does not endorse a
                                                      policy of liner vessels first and that all available
What We Did                                           commercial transportation assets be reviewed
We evaluated the effectiveness of policies and        simultaneously to determine the most cost-
procedures used to ensure that activated              effective commercial sealift transportation mode.
Government-owned and -chartered vessels were
used to the maximum extent prior to procuring         USTRANSCOM revise Policy Directive 24-7 to be
commercial transportation to Southwest Asia.          consistent with the DoD Directive 4500.09E and
We assessed the United States Transportation          DoD Instruction 4500.57 vessel selection process
Command (USTRANSCOM) policies for                     so that all commercial transportation resources (to
selecting the most cost-efficient vessel by           include liners and charters) can be considered
reviewing the existing United Services Contract       simultaneously, utilized in the most efficient and
for commercial liner services and reviewing           cost-effective manner, and document sealift
records for 249 USTRANSCOM ship                       options considered and justification for the final
movements in support of the Global War on             vessel selection. USTRANSCOM should also
Terror. We also reviewed Surface Deployment           produce specific policy guidance that assigns roles
and Distribution Command (SDDC)                       and responsibilities for annual fleet sizing and
recommendations made to USTRANSCOM on                 employ and enforce contractor performance
transporting DoD cargo to Southwest Asia.             requirements and rate adjustments under the
What We Found                                         planned new Universal Services Contract.
USTRANSCOM’s commercial vessel selection              Management Comments and Our
process does not evaluate whether a liner or          Responses
charter vessel is the most cost-effective             The Deputy Under Secretary of Defense for
alternative. Also, USTRANSCOM officials do            Logistics and Materiel Readiness (responding for
not document Southwest Asia vessel selection          the Under Secretary of Defense for Acquisition,
rationale when selecting from SDDC                    Technology, and Logistics), agreed with the
recommendations. SDDC does not enforce                recommendation to issue guidance to
penalties for late delivery of cargo under the        USTRANSCOM implementing the DoD
Universal Service Contract-5. USTRANSCOM              Instruction. USTRANSCOM agreed with our
has no formal process to implement or document        recommendations to revise its Policy
DoD requirements to annually size the                 Directive 24-7 to be consistent with the DoD
United States sealift fleet in order to meet          Directive and Instruction so that liners and charters
peacetime, contingency, and projected wartime         be considered simultaneously and in the most cost-
requirements. We identified internal control          effective manner and be documented; and include
weaknesses for the USTRANSCOM vessel                  guidance for annual fleet sizing. However,
selection process and for SDDC relating to the        USTRANSCOM did not include an implemen-
absence of contract management controls to            tation date for the revised policy and did not agree
enforce penalties for late deliveries of cargo.       with our recommendations to include further
What We Recommend                                     guidance on activated organic ships and enforcing
                                                      rate adjustments under the planned new Universal
The Under Secretary of Defense for Acquisition,       Services Contract. We request additional
Technology, and Logistics issue guidance to the       comments to those recommendations by
Commander, USTRANSCOM that                            USTRANSCOM by August 14, 2009.

                                                  i
Report No. D-2009-093 (Project No. D2008-D000AB-0193.000)                July 15, 2009

Recommendations Table
Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Under Secretary of Defense for                              A.1.a., A.1.b.
Acquisition, Technology, and
Logistics
Commander,                       A.2. and B.                C.
United States Transportation
Command



Please provide comments by August 14, 2009.




                                               ii
Table of Contents
Results in Brief                                                      i

Introduction                                                          1

       Objective                                                      1
       Background                                                     1
       Review of Internal Controls                                    5

Finding A. The Commercial Ship Selection Process                      6

       Recommendation, Management Comments, and Our Response         11

Finding B. Surface Deployment and Distribution Command’s
Administration of Liner Contract                                     14

       Recommendations, Management Comments, and Our Response        17

Finding C. Annual Sizing of the Fleet in Sea Transportation          18

       Management Comments on the Finding                            20

Appendices

       A. Scope and Methodology                                      21
              Prior Coverage                                         22
       B. Management Comments on Findings A and B and Our Response   23


Management Comments

       Office of the Under Secretary of Defense for Logistics
         and Materiel Readiness                                      28
       United States Transportation Command                          29
Introduction
Objective
The overall objective was to evaluate the effectiveness of policies and procedures used to
ensure that activated Government-owned and Government-chartered vessels are used to
the maximum extent prior to procuring commercial transportation to Southwest Asia
(SWA).

We performed this audit as required by Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan.”
Section 842 requires thorough investigation and auditing to identify potential waste,
fraud, and abuse in the performance of DoD contracts, subcontracts, and task and
delivery orders for the logistical support of coalition forces in Iraq and Afghanistan.
Further, Section 842 also requires thorough investigation and auditing of Federal agency
contracts, subcontracts, and task and delivery orders for the performance of security and
reconstruction functions in Iraq and Afghanistan.

Background
United States Transportation Command
United States Transportation Command (USTRANSCOM) is responsible for creating and
implementing global deployment and distribution solutions in support of the President,
Secretary of Defense, and Combatant Commander-assigned missions. USTRANSCOM
is the single entity to direct and supervise execution of the strategic distribution system
and has had the authority to establish a contracting activity to procure commercial
transportation services since September 2003. Sealift mobility is crucial because more
than 90 percent of all the equipment, fuel, and supplies needed to sustain the
United States Military are carried by sea. USTRANSCOM is subdivided into three major
Component Commands to carry out DoD missions: the Surface Deployment and
Distribution Command (SDDC), the Military Sealift Command (MSC), and the Air
Mobility Command.

Surface Deployment and Distribution Command
SDDC is USTRANSCOM’s primary distribution manager with oversight over
commercial ocean liner services that distribute cargo to United States forces on a global
basis. SDDC is also responsible for surface transportation and is the interface between
DoD shippers and the commercial transportation carrier industry.

Military Sealift Command
MSC has oversight of sealift transportation services to deploy, sustain, and redeploy
United States forces around the globe. MSC also operates a fleet of prepositioned ships
around the world that are loaded with equipment and supplies to sustain DoD operations.
Eleven Government-owned, large, medium-speed, roll-on/roll-off (LMSR) ships provide


                                            1
sealift transportation in support of the Global War on Terror (GWOT). Each LMSR is
capable of carrying more than 300,000 square feet of cargo and can travel up to 24 knots
per hour. The LMSRs are ideal for carrying heavy armored vehicles, helicopters, and
other break-bulk military equipment. Break-bulk equipment is cargo that cannot be
containerized. Other vessels that support GWOT are the Ready Reserve Force (RRF) of
roll-on/roll-off ships that are managed by the Maritime Administration.

Overview of Overseas Shipping
The Government uses the commercial shipping industry to deploy cargo (from the
United States to SWA) and redeploy cargo (from SWA back to the United States) in
support of GWOT. Specifically, the Government contracts with carriers who provide
liner and charter services to the Government. Liner services are contracted for under the
Universal Services Contract (USC)-5, and charter services are contracted for individually
as the need to charter a ship arises. According to USTRANSCOM officials, as of
December 2008, USTRANSCOM incurred $1.9 billion in expended USC-5 container and
break-bulk worldwide transportation costs for FY 2005 through FY 2008.

Liner Vessels
The liner services have set routes and make frequent scheduled stops at ports before
offloading cargo at their final destination. Cargo moved on liner ships may be
Government or commercial as the Government pays only for space on the ship.

Chartered Vessels
In contrast, ships that are chartered by the Government are dedicated to the mission they
are chartered for. Thus, the Government contracts and pays for the use of the entire ship.
Ships can be chartered for one voyage or for a defined length of time. According to DoD
Directive 4500.09E, “Transportation and Traffic Management,” if a ship is chartered for
a period greater than 90 days, it is a DoD-controlled asset. Currently, according to
USTRANSCOM officials, there are two long-term charter ships in support of GWOT, the
Westward Venture and the Virginian.

Government Shipping
USTRANSCOM also uses RRF ships and LMSR ships to transport cargo. RRF and
LMSR ships are used when the United States commercial maritime industry is unable to
support the requirement through either a liner or a charter ship. While in reduced
operating status, RRF ships are maintained by the Department of Transportation’s
Maritime Administration, and LMSRs (used for both sealift and prepositioning) are under
the command of MSC. RRFs can take anywhere from 4 to 20 days, while LMSRs can
take from 4 to 90 days to be fully operational from the day activation orders are received.
When RRF and LMSR ships are activated, the ships come under the operational control
of MSC.

Voluntary Intermodal Sealift Agreement
The Voluntary Intermodal Sealift Agreement (VISA) program is a partnership between
the United States Government and the maritime industry to provide DoD with “assured
access” to commercial sealift and intermodal capacity to support the contingency


                                            2
deployment and sustainment of United States Military forces. It commits carriers to
provide shipping capacity and allows shippers to carry military cargo alongside
commercial cargo. With a mixture of Government-owned and commercial ships, MSC
serves three primary functions: surge sealift, prepositioned sealift, and sustainment
sealift. Maritime Administration officials noted that SDDC executes the VISA for
commercial non-chartered vessels, while MSC executes the VISA for commercial
chartered vessels.

Criteria
Cargo Laws and Regulations
The Maritime Administration’s Cargo Preference Program was created to promote and
facilitate a United States maritime transportation system that is accessible and efficient in
the movement of goods and people. The program oversees the administration of and
assures compliance with United States cargo preference laws and regulations that require
shippers to use United States flag vessels to transport Government cargo. The Cargo
Preference Act of 1904 requires all United States Military and Defense agencies to use
only United States flag vessels for ocean transportation of supplies unless those vessels
are not available at fair and reasonable rates. The Cargo Preference Act of 1954 requires
that at least 50 percent of the gross tonnage of supplies is transported on privately-owned
United States flag commercial vessels to the extent that such vessels are available at fair
and reasonable rates.

National Security Directive 28
The purpose of National Security Directive 28, “National Security Directive on Sealift,”
October 5, 1989, (Directive 28) is to ensure that the United States maintains the
capability to meet sealift requirements in the event of crisis and war. Directive 28
establishes that the United States-owned commercial industry, to the extent that it is
capable, will be relied upon to provide sealift in peace, crisis, and war. This capability
will be augmented during crisis and war by reserve fleets composed of ships with
national defense features that are not available in sufficient numbers or types in the active
United States-owned commercial industry.

DoD Directive 4500.09E, “Transportation and Traffic
Management”
DoD Directive 4500.09E, “Transportation and Traffic Management,” September 11,
2007 (Directive 4500.09E) dictates that, “DoD transportation requirements shall be met
by using the most cost effective commercial transportation resources to the maximum
extent practicable unless there is a documented negative critical mission impact.”
Directive 4500.09E, Section 4.2.2 states that DoD cargo shall only be transported by sea
in vessels belonging to the United States unless United States flag vessels are not
available.




                                              3
DoD Instruction 4500.57, “Transportation and Traffic
Management”
DoD Instruction 4500.57, “Transportation and Traffic Management,” March 18, 2008,
(Instruction 4500.57) states that when scheduled commercial liner service would not cost-
effectively meet DoD requirements, USTRANSCOM may charter vessels. Once
chartered, the vessels are to be used to the maximum extent practicable. Also, once a
Government (organic) ship is activated, it should receive priority over commercial
alternatives if the Government ship can support the mission. Section 4.4.5 states that,
“U.S. Government sealift vessels . . . normally are maintained in a state of reserve
readiness . . . . When activated, their use should receive priority over commercial
alternatives if they can support mission requirements within the scope and timing of their
activation orders.” DoD Instruction 4500.57 gives the order of priority for the use of
commercial carriers when scheduled commercial airline or ocean liner service would not
cost-effectively meet DoD requirements, or when dedicated assets would best fulfill
operational requirements, USTRANSCOM may charter aircraft vessels. Thus DoD
Instruction 4500.57 allows USTRANSCOM to charter vessels if the command
determines that liner services are not cost-effective or when dedicated assets would best
fulfill operational requirements. Section 4.4.5 also states that when more than one sealift
alternative is available (liner, charter, or activated Government-owned), relevant factors
such as vessel schedules, customer requirements, cost, and capacity will be evaluated and
documented to support the justification for each sealift vessel selection decision.

USTRANSCOM Policy Directive 24-7, “Strategic Sealift Vessel
Selection Policy”
USTRANSCOM Policy Directive 24-7, “Strategic Sealift Vessel Selection Policy,”
November 21, 2007, states that USTRANSCOM shall select the course of action from
among the recommendations proposed by USTRANSCOM Component Commands that
most effectively and most efficiently meets mission requirement in the following priority:

       a. Maximize use of commercial vessels already under charter to the
          United States;
       b. Maximize use of activated Surge Sealift vessels (Government-owned ships)
          without deviating more than 2 days from the voyage plan contemplated by the
          vessel’s original activation order, unless pre-approved or subsequently
          approved by the Commander, USTRANSCOM upon review of recent and
          projected commercial utilization rates;
       c. Maximize use of vessels in regularly scheduled commercial service in
          accordance with VISA;
       d. Hire vessels available for charter in accordance with VISA priorities; and
       e. Activate Government-owned vessels (organic ships) for unique cargo
          requirements where commercial lift is otherwise unavailable, and fill the
          activated vessel to capacity.




                                            4
Review of Internal Controls
We identified an internal control weakness for USTRANSCOM relating to the
command’s commercial vessel selection process as the process does not evaluate whether
a commercial liner or a Government-chartered vessel is the most cost-effective
alternative, as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC)
Program Procedures,” January 4, 2006. USTRANSCOM also did not establish internal
controls to document management decisions that implement or deviate from SDDC
recommendations to activate a Government-owned vessel or to document DoD
requirements to annually size the United States sealift fleet in order to meet peacetime,
contingency, and projected wartime requirements. USTRANSCOM implementation of
report recommendations will correct the deficiencies.

In addition, we identified an internal control weakness for SDDC relating to absence of
contract management controls to enforce penalties for late deliveries of cargo, as defined
in DoD Instruction 5010.40. USTRANSCOM implementation of report
recommendations combined with enforcement of the new universal services contract will
correct the internal control deficiencies. We will provide a copy of this report to the
senior official responsible for internal controls at SDDC and USTRANSCOM.




                                            5
Finding A. The Commercial Ship Selection
Process
The USTRANSCOM commercial vessel selection process does not evaluate whether a
commercial liner or a Government-chartered vessel is the most cost-effective alternative
and does not simultaneously consider commercial liner and charter alternatives. In
addition, USTRANSCOM officials do not document SWA vessel selection rationale
when selecting from SDDC-recommended courses of action. This occurs because
USTRANSCOM vessel selection policies are not consistent with the DoD transportation
and traffic management directive and instruction. As a result, USTRANSCOM may be
spending more to procure commercial liner transportation when less expensive ships may
be available for charter.

USTRANSCOM Sealift Vessel Offering and Selection
Process
The Government moves cargo in containers (a truck trailer body that can be detached
from the chassis for loading onto a ship) or as break-bulk shipments. Billing rates for
containers and break-bulk shipments are both billed by measurement ton. A measure-
ment ton equals 40 cubic feet. The cost of a liner ship is dependent on the cargo being
moved. The larger the cargo requirement (either in terms of measurement tons or number
of containers), the higher the cost will be using liner services. In contrast, the cost of a
chartered ship will be the same regardless of the cargo moved because the Government
pays to charter the whole ship. The USTRANSCOM commercial selection process
includes review steps performed by SDDC and MSC.

SDDC and MSC Role in the Ship Selection Process
The ship selection process begins when USTRANSCOM determines that the
transportation mode for a cargo requirement will be met by shipping the cargo across the
ocean. First, SDDC determines whether existing MSC-chartered or already activated
sealift ships are available. If neither is available, SDDC offers the cargo directly to
commercial carriers at a cargo aggregation meeting. Cargo requirements are given to the
liner carriers whose schedules will allow them to pick up and deliver the cargo. Although
the volunteer carrier commitment to take cargo is not binding, SDDC reserves the cargo
for those carriers, then passes the rest of the cargo not taken by the liner carriers to MSC.
MSC officials may charter a commercial ship for cargo that was not reserved for a liner
ship at the cargo aggregation meeting. Finally, if no commercial ship is available for
charter, MSC can request activation of an organic ship.

USTRANSCOM Authority
SDDC officials are required to evaluate sealift options in the form of a course of action if
they are going to request activation of an organic ship. The USTRANSCOM Command-
er has the authority to choose from the alternatives contained in the courses of action
developed by SDDC. These alternatives can include activating an organic vessel,
utilizing a chartered vessel, or utilizing a commercial liner or a combination of vessels.


                                             6
Recommended SDDC options summarize the requirement, the alternatives available, the
estimated cost of each vessel, and the preferred alternative. USTRANSCOM has the
final decision on the alternative but currently does not document the final decision.

Sequential Consideration
MSC and SDDC segmentation of commercial ship selection process duties does not
allow for all commercial transportation resources to be considered simultaneously but
rather uses a sequential process. SDDC provides commercial liner solutions and transfers
the requirement to MSC to provide a commercial charter solution only if a liner solution
is not identified by SDDC. Therefore, the USTRANSCOM commercial vessel selection
process does not evaluate whether a commercial liner or a Government-chartered vessel
is the most cost-effective alternative to the extent required by DoD Directive 4500.09E
and DoD Instruction 4500.57. Thus, USTRANSCOM, SDDC, and MSC officials cannot
make the determination that the most cost-effective commercial transportation resources
are being utilized.

Documentation of Course of Action Decisions
USTRANSCOM officials did not document SWA vessel selection rationale when
selecting an alternative from SDDC-recommended actions. We reviewed seven SDDC
unit and cargo movements that had three course of action options each. We were unable
to find any documentation supporting USTRANSCOM selection from among the SDDC
presented options. We concluded that the USTRANSCOM selections were not in
compliance with DoD Instruction 4500.57 requirements, that when more than one
alternative is available, USTRANSCOM should document the circumstances supporting
the decision.

For example, one of the movements we reviewed included three potential courses of
action pertaining to the movement of Mine Resistant Ambush Protected vehicles and unit
cargo to SWA out of Charleston, South Carolina. The three are described below:
      Course of Action 1 recommended activating an LSMR to move the vehicles and
       unit cargo. The analysis stated that this action would maintain validation and
       vessel selection process integrity. SDDC estimated the cost to move cargo under
       the course of action at $7.4 million.
      Course of Action 2 recommended using various commercial vessels and a
       chartered vessel to move the cargo. The analysis stated that, while this action
       satisfied the requirement, it allowed commercial carriers “to pick and choose what
       cargo moves on their vessels.” SDDC estimated the cost to move the cargo under
       the course of action at $14.9 million.
      Course of Action 3 recommended utilizing a combination of commercial liners,
       chartered vessels, and a Government ship. The analysis stated the option allowed
       commercial industry to “pick and choose” what cargo to move on their vessels.
       SDDC estimated the cost to move the cargo under the course of action at
       $9 million.




                                           7
While all three potential alternatives satisfied the cargo move, SDDC recommended
Course of Action 2 because it supported the established USTRANSCOM commercial
first policy. However, SDDC noted drawbacks in Course of Action 2 including a
potential breakdown in the validation process and a potential devaluing of the MSC
activation process. Additionally, SDDC officials believe that the current commercial first
policy established a bad precedent allowing the commercial industry to pick and choose
what DoD cargo they accept based on financial gain. USTRANSCOM officials
subsequently stated in comments to this report that Course of Action 2 was selected
because the Mine Resistant Ambush Protected vehicles were in such high demand, every
available ship that could move them was considered an option (including liner, charter,
and activated Government vessels), with a priority for on-time delivery. However,
USTRANSCOM did not document the factors for its selection decision.

Consistency of USTRANSCOM Policies
USTRANSCOM vessel selection policies are not consistent with National Security and
DoD transportation and traffic management directives and instructions. For example,
Directive 28 and Directive 4500.09E require use of commercial transportation to the
maximum extent while USTRANSCOM Policy Directive 24-7 specifies separate
requirements regarding liner and charter services.

Directive 28 requires that sealift requirements shall be met using the United States-owned
commercial ocean carrier industry to the extent it is capable in peace, crisis, and war.
Directive 28 further states that “development and implementation of specific sealift and
supporting programs will be made with full consideration of the costs and benefits
involved.” Further, Directive 4500.09E requires that DoD transportation requirements be
met by using the “most cost effective commercial transportation resources to the
maximum extent practicable unless there is a documented negative critical mission
impact.” Commercial transportation consists of both liner service ships and ships
available for commercial charter. Directive 28 and Directive 4500.09E do not distinguish
between commercial ships available for charter and commercial ships in regularly
scheduled liner service. Both policies require only that commercial transportation
services be used to the maximum extent with costs considered.

Conversely, USTRANSCOM, MSC, and SDDC officials used the vessel selection
guidance given in USTRANSCOM Policy Directive 24-7. This policy gives priority to
the liner services where appropriate and reasonably priced. According to
USTRANSCOM Policy Directive 24-7, ships available for charter are hired only if liners
are not able to meet mission requirements or are not reasonably priced.

Office of the Under Secretary of Defense View of Vessel
Selection Requirements
Instruction 4500.57, paragraph 4.4.3 states that, “When scheduled commercial . . . ocean
liner service would not cost-effectively meet DoD requirements, or when dedicated assets
would best fulfill operational requirements, USTRANSCOM may charter . . . vessels.”
USTRANSCOM and its components interpret paragraph 4.4.3 as preference should be
given to liner ships. However, Office of Under Secretary of Defense for Acquisition,


                                            8
Technology, and Logistics [USD(AT&L)] officials stated to us that the intent of the DoD
Instruction is to implement a policy of commercial first selection and does not endorse a
policy of liner first selection. The officials noted that DoD Instruction 4500.57,
paragraph E5.4, “Commercial Priorities,” does not make any distinction between liner
and charter commercial service, instead it refers to “U.S. flag vessel capacity.”

USD(AT&L) officials are working with USTRANSCOM to ensure that Policy
Directive 24-7 is appropriately aligned with DoD Instruction 4500.57. USD(AT&L)
officials believed that USTRANSCOM could better implement DoD Instruction 4500.57
requirements in four areas. Specifically, USD(AT&L) officials believed that the
USTRANSCOM Policy Directive 24-7 inappropriately:

      adheres to a “liner-first” policy at the expense of chartered commercial services;
      contains conflicting language regarding allowing chartered services and appears
       to establish cost as a single criterion for chartering;
      does not require evaluations of relevant factors when more than one course of
       action is available, that is, commercial liner, commercial charter, or activating a
       Government-owned vessel; and
      establishes an arbitrary 2-day limit when deviating from a (Government) organic
       ship’s activation orders.

USD(AT&L) and USTRANSCOM officials are working to ensure that USTRANSCOM
procedures are consistent with DoD Instruction 4500.57 language that when more than
one sealift alternative is available, relevant factors such as vessel schedules, customer
requirements, cost, and capacity be evaluated and documented to support the justification
for each sealift vessel selection decision. The USD(AT&L) officials requested that
USTRANSCOM replace the Policy Directive 24-7 2-day time frame with DoD
Instruction language that activated, organic ships receive priority over commercial
alternatives if they can support mission requirements within the scope and timing of their
activation orders.

USD(AT&L) officials believed that if USTRANSCOM were to conduct cost-effective
evaluations to determine use of a liner or of a new charter prior to awarding cargo to
potential carriers at a cargo aggregation meeting, the USTRANSCOM vessel selection
policy would then be in compliance with the DoD Instruction. We agree that evaluation
of all available sources would ensure the most efficient and cost-effective option. As of
July 9, 2009, USD(AT&L) officials noted to us that USTRANSCOM Policy
Directive 24-7 had not been revised to include the proposed USD(AT&L) changes.

Commercial Cost Analysis
USTRANSCOM may be spending more to procure commercial liner transportation when
less expensive ships may be available for charter.

Potential Cost Data Comparison Situations
In order to identify situations where commercial liner transportation costs could be
compared to voyage charter ships, we requested and received SDDC and MSC cost data


                                            9
for 29 of the 180 liner service movements made from January 1, 2007, through March 31,
2008. The 29 liner movements were valued at $128 million. We also received from
MSC cost data for 23 charter service movements made during the time frame of
January 1, 2007, through March 31, 2008. The 23 charter service movements were
valued at approximately $47 million.1

We selected one ship movement composed of similar data from each liner and charter
category in order to compare cost and efficiency of similar liner and charter
redeployments. The examples include the actual length of time from port of embarkation
to port of debarkation, actual amount of cargo moved, and the actual total cost of liner
and charter movements. The examples show that USTRANSCOM should perform cost
analyses when a liner service ship and a ship available for commercial charter are
determined to be available to move cargo, particularly in instances when the cargo
requirement is larger than a specified amount.

The first example shows similar redeployments of DoD break-bulk cargo from Ash
Shuaybah, Kuwait, to Beaumont, Texas. In the example illustrated in Table 1, the
chartered ship movement cost $4.9 million less than the liner service movement and
moved over 8,000 more measurement tons of cargo. However, the liner movement took
less time, at 27 versus 43 days, as the chartered ship (Westward Venture) movement
stopped to offload cargo in Antwerp, Belgium.

                   Table 1. Commercial Ship Cost Comparison 1
          SHIP NAME           SAIL DATES          MEASUREMENT TOTAL
                                                        TONS    COST
Liner     Great Land     October 23–              18,422      $7,399,000
                         November 19, 2007
Charter   Westward       January 19–March 3,      26,800      $2,480,000
          Venture        2007

In the second example, illustrated in Table 2, both liner and charter ships redeployed
directly from Ash Shuaybah, Kuwait, to Charleston, South Carolina. The chartered ship
(American Tern) cost $2.2 million less than the liner movement while moving an
additional 567 measurement tons of cargo. However, in this instance, the liner service
ship may have been marginally more time-efficient because it took 7 fewer days to arrive
in Charleston, South Carolina. When compared to the example in Table 1, the second
example illustrates that the cost to use liner ships can increase greatly depending on the
amount of cargo delivered.




1
 In addition, 29 USTRANSCOM organic ship movements to SWA, valued by USTRANSCOM at
$19.7 million, occurred from January 1, 2007, through March 31, 2008.


                                            10
                   Table 2. Commercial Ship Cost Comparison 2
             SHIP NAME          SAIL DATES        MEASUREMENT                   TOTAL
                                                        TONS                     COST
Liner        Honor          September 30–         12,221                       $4,328,000
                            October 23, 2007
Charter      American       June 3–July 3, 2007   12,788                       $2,103,000
             Tern


Conclusion
Conflicting vessel selection process policies prevent USTRANSCOM and its Component
Commands from making cost-effectiveness determinations and from choosing the best
commercial resource to move cargo. Specifically, USTRANSCOM and its Component
Commands follow USTRANSCOM Policy Directive 24-7, which separates commercial
resources (liner and charter) and requires sequential SDDC and MSC consideration of
available liners and available commercial charter ships. Since all commercial resources
available to support a movement are not compared simultaneously, and USTRANSCOM-
level decisions are not documented, USTRANSCOM is unable to make cost-effective-
ness decisions and therefore is not in compliance with DoD policy.

Management Comments on the Finding
Responding for the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics, the Deputy Under Secretary of Defense for Logistics and
Materiel Readiness did not specifically agree or disagree with the finding, but did provide
technical comments on two topics discussed in the finding. The Chief of Staff,
USTRANSCOM agreed with the finding but identified specific data he believed was
incorrect. See Appendix B for a summary of management comments provided and our
response.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics issue guidance to the Commander, United States
Transportation Command stating that:

       a. DoD Instruction 4500.57, “Transportation and Traffic Management,” does
not endorse a policy of liner first election; and

       b. All available commercial transportation assets (to include liners and
charters) be reviewed simultaneously to determine the most cost-effective mode of
commercial sealift transportation.




                                            11
OUSD Comments
The Deputy Under Secretary of Defense for Logistics and Materiel Readiness
(responding for the USD[AT&L]), agreed with Recommendation A.1. and noted it would
issue guidance to the Commander, USTRANSCOM to ensure that their procedures are
consistent with DoD Policy.

Our Response
The Deputy comments were responsive to the intent of the Recommendation A.1. and no
further comments are required.

USTRANSCOM Comments
Although not required to comment, the Chief of Staff, USTRANSCOM disagreed with
the recommendation, believing that the guidance in current DoD Policy, Directives, and
Instructions is sufficient. USTRANSCOM also noted that existing DoD guidance
regarding the efficiency, effectiveness, and VISA priority was sufficient. However,
USTRANSCOM noted that it would adjust its internal operating procedures to align them
with existing DoD Policy, Directives, and Instructions.
Our Response
The current USTRANSCOM interpretation of DoD Instruction 4500.57, “Transportation
and Traffic Management,” is not sufficient to prevent a policy of liner first election.
Rather, USTRANSCOM should require that all available commercial transportation
assets (to include liners and charters) be simultaneously reviewed to determine the most
cost-effective mode of commercial sealift transportation. As noted in the draft report,
MSC and SDDC segmentation of commercial ship selection process duties does not
allow for all commercial transportation resources to be considered simultaneously but
rather uses a sequential process. SDDC provides commercial liner solutions and transfers
the requirement to MSC to provide a commercial charter solution only if a liner solution
is not identified by SDDC. Therefore, USTRANSCOM commercial vessel selection
process does not evaluate whether a commercial liner or a Government-chartered vessel
is the most cost-effective alternative to the extent required by DoD Directive 4500.09E
and DoD Instruction 4500.57. Thus, USTRANSCOM, SDDC, and MSC officials cannot
make the determination that the most cost-effective commercial transportation resources
are being utilized.

A.2. We recommend that the Commander, United States Transportation Command
revise United States Transportation Command Policy Directive 24-7, “Strategic
Sealift Vessel Selection Policy,” to be consistent with Department of Defense
Directive 4500.09E, “Transportation and Traffic Management,” and Instruction
4500.57, “Transportation and Traffic Management,” by including language noting:

   a. When scheduled commercial ocean liner service would not cost-effectively
      meet DoD requirements, or when dedicated assets would best fulfill
      operational requirements, United States Transportation Command may
      charter vessels;



                                          12
   b. A list of commercial priorities contained in DoD Instruction 4500.57;

   c. When more than one sealift alternative is available, relevant factors such as
      vessel schedules, customer requirements, cost, and capacity will be evaluated
      and documented to support the justification for each sealift vessel selection
      decision;

   d. Activated organic ships used should receive priority over commercial
      alternatives if they can support mission requirements within the scope and
      timing of their activation orders; and

   e. Require United States Transportation Command to support sealift options
      considered and document the justification for the final vessel selection.

USTRANSCOM Comments
USTRANSCOM agreed with Recommendations A.2.a., A.2.b., A.2.c., and A.2.e. and
disagreed with Recommendation A.2.d. Regarding recommendation A.2.a.,
USTRANSCOM stated it would adjust its internal operating procedures to ensure that all
factors, including cost, will be considered when making vessel selection. In regards to
Recommendation A.2.b., USTRANSCOM stated that its current and proposed
USTRANSCOM procedures use the same commercial priorities as DoD
Instruction 4500.57. In regards to Recommendation A.2.c. USTRANSCOM stated that
its revised operating procedures will contain the recommended language to ensure
decisions are documented. In regards to Recommendation A.2.e. USTRANSCOM stated
that it will document vessel selection decisions.

USTRANSCOM disagreed with Recommendation A.2.d. stating that activated organic
ships and commercial vessels chartered to the United States have priority over other
commercial alternatives in the current USTRANSCOM operating procedures.

Our Response
USTRANSCOM comments to Recommendations A.2.a., A.2.b., A.2.c., and A.2.e. were
responsive, but the comments did not include an implementation date for the
recommended revision to USTRANSCOM Policy Directive 24-7. In addition
USTRANSCOM comments were not responsive to the intent for Recommendation A.2.d.
We disagree that current USTRANSCOM operating procedures give priority to activated
organic ships and commercial vessels chartered to the United States over other
commercial alternatives. As noted in the draft report, USTRANSCOM, MSC, and SDDC
officials used the vessel selection guidance given in USTRANSCOM Policy
Directive 24-7. This policy gives priority to the liner services where appropriate and
reasonably priced. According to USTRANSCOM Policy Directive 24-7, ships available
for charter are hired only if liners are not able to meet mission requirements or are not
reasonably priced. Thus, we request further comment from USTRANSCOM regarding a
proposed implementation date for Recommendation A.2. as well as further comment
regarding Recommendation A.2.d.



                                           13
Finding B. Surface Deployment and
Distribution Command’s Administration of
Liner Contract
SDDC does not enforce certain aspects of the USC-5 liner services contracts in keeping
with an unwritten USTRANSCOM/contractor agreement whereby neither charges the
other for late deliveries. According to SDDC officials, the Government does not enforce
penalties associated with contractor failure to meet required delivery dates or other
penalties for poor performance while contractors do not request payments associated with
Government no-shows. The Government and contractors made this agreement because
they believed it was difficult to determine which party was responsible for late deliveries.
We were unable to determine a specific dollar amount of the forgone penalties due to
lack of SDDC contract documentation.

Overview of Universal Services Contracts
USC-5 is a group of ocean transportation contracts used to transport cargo in support of
Operation Iraqi Freedom and Operation Enduring Freedom. The contracts are based on a
fixed-price, economic price adjustment, indefinite-delivery, indefinite-quantity
solicitation, WYE-05-R-0014. Twenty-two carriers were awarded contracts under
USC-5, estimated by SDDC to have an approximate annual value of $400 million. The
base period of the contracts was March 2006 through February 2007. In addition, each
contract contained options that have extended the contracts’ duration from March 2007
through February 2009.

Cargo Containers and Break-Bulk Cargo
Carriers move cargo containers and break-bulk cargo. A container is a truck trailer body
that can be detached from the chassis for loading into a vessel, a rail car, or stacked in a
container depot. A container may be 20 feet or 40 feet in length and about 8 feet wide
and about 9 feet high. Break-bulk cargo is loose, non-containerized cargo, such as light
or heavy vehicles or helicopters.

USC-5 Performance Requirements
The USC-5 contract provides international cargo transportation and distribution services
using contract carriers offering regularly scheduled commercial liner service for
requirements that may arise anywhere in the world. One of the performance
requirements is that the cargo delivery is required by dates specified in the accepted
booking. If the carrier fails to deliver the cargo by the required delivery date (RDD)
specified in the accepted booking, the contractor may be assessed a lump sum penalty of
$250 for each container, and $7 for each break-bulk shipment per minimum measurement
ton. Conversely, if the Government fails to provide the minimum contractually
guaranteed cargo on a designated route, the contractor may bill the Government $250 per
each container and $7 per minimum measurement ton. However, the contracts direct that



                                             14
these penalties do not apply for shipments to Iraq, Afghanistan, and Pakistan.
Conversely, if the Government fails to cancel a booking at least 1 working day in
advance of the cutoff for the vessel or if cargo is not available to be put on board the
vessel through no fault of the contractor, the cargo is designated as a “no show.” The
contractor may bill the Government $250 per each container no-show and $7 per
minimum measurement ton for each break-bulk cargo no-show.

USC-6 Contract
USC-6 request for proposal HTC711-08-R-0011, issued in August 2008, provides for
international cargo transportation using ocean carriers’ regularly scheduled commercial
liner service to support DoD peacetime and contingency operations. The USC-6
contracts include a 1-year base period from April 2009 through March 2010, with 1-year
option periods starting from April 2010 through March 2012.

Delivery Penalties Not Enforced
SDDC does not enforce certain aspects of the USC-5 liner services contracts in keeping
with an unwritten USTRANSCOM/contractor agreement that neither will charge the
other for penalties for late deliveries or poor performance. The Government and
contractor made the agreement because they believed it was difficult to determine which
party was responsible for the late delivery. SDDC acts as a liaison between Government
shippers and commercial carriers. SDDC is responsible for establishing and maintaining
contracts with the carrier industry to deploy and distribute DoD supplies worldwide.
SDDC officials acknowledged that the Government does not enforce penalties to the
contractor associated with the failure to meet RDD. Also, the contractor does not request
payment associated with booked cargo that is not available to be put on board the vessel
because of Government inaction. According to SDDC officials, the Government
sometimes was responsible for no-shows.

Frequency of Delivery Delays
We requested that USTRANSCOM provide a list of all delivery delays on USC-5 for the
period of July 2007 through September 2008. We identified 39 instances of RDD
problems on commercial ship movements. Nine of the 39 shipments were to or from
SWA but these shipments are exempt from liquidated damages for late delivery per the
contract. The tracking report listed 14 shipments where cargo was not available to be put
on the ship through the fault of the Government. USTRANSCOM officials stated that no
damages were charged to the contractor or the Government for the RDD discrepancies.2

SDDC Management Action
SDDC is implementing another contract performance approach under the USC-6
contracts. The Government will monitor contactor performance using performance
averages based on a 90-day rolling average refreshed each month. Performance averages
and associated Contractor Performance Scores shall become effective on the first day of
2
 USD(AT&L) officials believed the number of late USC-5 shipments to be far greater. For example, the
officials cited an October 2008 VISA meeting where one of the largest USC-5 carriers provided RDD
metrics for August 2008 indicating that the carrier met on-time requirements only 48 percent of the time.


                                                    15
the following month and supersede previous scores. The averages consist of an
assessment of on-time delivery, in-transit visibility, and condition. Based on the
computed performance score for these factors, the contractor is assigned one of three
ratings: Category A, preferred contractors; Category B, second preferred contractors; and
Category C, third preferred contractors. The rating evaluates past delivery performance
by measuring required delivery date within 24 hours. The highest rated contractors are
designated as Category A preferred. Lesser rated contractors are designated as
Category B or C preferred contractors. Therefore, this allows contractors with
performance score improvements to move from a third preferred contractor to a second or
first preferred contractor. Under the USC-6 contract structure, SDDC believes
contractors will be motivated to make on-time delivery because it is recorded and
incorporated in a performance formula that gives each contractor a rating and easily
allows comparisons between competing contractors on the basis of on-time performance.
There is no penalty assessed on a per unit basis as outlined in the USC-5 contracts.
Rather, contractors with on-time deliveries are rewarded with first preference on cargo
bookings.

The initial USC-6 Request for Proposal included a clause noting that Category B and C
contractors, if offered a booking, must agree to a 3 percent or 5 percent reduction in
price, respectively, to their single factor transportation rate. On September 10, 2008,
Request for Proposal Amendment 02, removed the rate reduction requirement.
USTRANSCOM contracting office personnel stated that the language was removed in
response to industry comments and because USTRANSCOM determined the clause was
not consistent with standard commercial practices. However, USTRANSCOM could not
provide any documentation to support the determination. Industry comments noted that
the initial USC-6 Request for Proposal did not have a quid pro quo for Government no-
shows.

While we agree with the USTRANSCOM intent to use performance factors in the USC-6
arrangement, we believe that for the USC-6 arrangement to be fully effective, the
contract should include downward rate adjustments for Category B and C performances.
Such downward rate adjustments should be established in the USC-6 contract and
enforced by USTRANSCOM. Without such adjustments the USC-6 contract will not
fully correct the shortfalls in the USC-5 arrangement and relate profit or fee to results
achieved by the contractor, compared with specific targets.

Management Comments on the Finding
USTRANSCOM agreed with the finding and provided additional comments on the issues
in the finding. See Appendix B for a summary of management comments provided and
our response.




                                           16
Recommendation, Management Comments, and Our
Response
B. We recommend the Commander, United States Transportation Command
employ the proposed Universal Services Contract 6 strategy when the contracts are
awarded so that the carriers with on-time deliveries are rewarded with first
preference on cargo bookings and receive payment equal to the full rate and that
carriers with lower rated delivery status receive reduced payments.

USTRANSCOM Comments
USTRANSCOM did not agree with Recommendation B. USTRANSCOM stated that
USC-6 does differentiate poor performers from better performers through use of a
Performance Assessment Matrix and Best Value Selection Criteria that allows
Government shippers to book with preference for U.S. Flag carriers with the best
performance. USTRANSCOM noted that the same criteria also consider in-transit
visibility and delivery in good order and condition. While USTRANSCOM agreed that
USC-6 does not price a reduced rate for substandard performance scores, it believed that
USC-6 instead reserves the Government’s right to withhold cargo bookings from poor
performers as an incentive to better performance. USTRANSCOM also believed that use
of the USC-6 Performance Assessment Matrix would incentivize better performance, but
that implementing our recommendation to amend the USC-6 contract would
unnecessarily put its contractor partnership at risk.

Our Response
Although USTRANSCOM disagreed with the recommendation, the USC-6 contract
awarded January 30, 2009, includes provisions to reward carriers with on-time deliveries,
which partially satisfies the intent of our recommendation. On-time delivery is the major
factor in the formula for determining contractors’ performance. We believe that
USTRANSCOM cargo booking incentives should be designed to relate profit or fee to
results achieved by the contractor, compared with specific targets. Thus, we request
further comment from USTRANSCOM regarding achieving better contractor
performance through booking and payment incentives.




                                           17
Finding C. Annual Sizing of the Fleet in Sea
Transportation
Improvements are needed in the implementation and management of DoD sealift
capability fleet sizing. Specifically, USTRANSCOM did not adhere to DoD
requirements to annually determine the number of DoD-controlled ships to meet
peacetime and wartime requirements for sealift capability. Furthermore,
USTRANSCOM has not issued policy and guidance for monitoring the annual sizing of
the sealift fleet of organic and charter vessels to support DoD strategic sealift
requirements. USTRANSCOM did not perform annual sizing because it believed that
sizing is performed on a daily basis due to changing requirements for sealift assets. As a
result, the course of action taken by USTRANSCOM in documenting a sizing of the fleet
will limit its ability for long-range planning of activities (that is, training exercises and
troop rotation/transportability). It could also result in coordination problems and increase
cargo transportation costs by having smaller volumes of cargo assigned to different
vessels.

Sea Transportation Fleet Sizing Guidance
Instruction 4500.57 states that the mix of commercial and organic capacity supporting
DoD requirements is dynamic; nevertheless, at least annually the Commander,
USTRANSCOM will determine the number of organic and chartered ships (that is,
collectively, the DoD-controlled fleet) required to meet peacetime, contingency, and
wartime projected requirements. Directive 4500.09E states the National Defense strategy
of the United States requires a strong Defense Transportation System operating within a
national transportation system that is fully responsive and globally capable of meeting
personnel and materiel movement requirements of the DoD across the range of military
operations. This strategy requires that an optimum mix be achieved that matches Defense
requirements with the various modes and methods of transportation, both military and
commercial. DoD Directive 5158.04, “United States Transportation Command,” July 27,
2007, (Incorporating Administrative Change 1, September 11, 2007), states the
Commander, USTRANSCOM will provide effective and efficient air, land, and sea
transportation for DoD in times of peace.

Defense Transportation Regulation 4500.9-R, “Part III Mobility,” states USTRANSCOM
will provide air, land, and sea transportation in peace and war as the DoD single manager
for transportation other than Service-unique or theater-assigned transportation assets.
The Regulation also states USTRANSCOM will align traffic management and
distribution process responsibilities to achieve optimum responsiveness, effectiveness,
and economy in times of peace and war. The Regulation further states that
USTRANSCOM will coordinate the forecasting and execution of validated transportation
requirements on behalf of DoD in both peace and war, to include channel approval. The
Regulation states that USTRANSCOM will advise the Joint Staff and other DoD
Components when there is insufficient capability to meet requirements and make
recommendations for actions to alleviate the shortfall.



                                             18
Documenting Sizing of the Fleet
Improvements are needed in the implementation and management of DoD sealift
capability fleet sizing. Specifically, USTRANSCOM did not adhere to DoD
requirements to annually determine the number of DoD-controlled ships to meet
peacetime and wartime requirements for sealift capability. USTRANSCOM is required
to determine the mix of commercial (scheduled service and charter) and organic capacity
to support DoD requirements. USTRANSCOM has not carried out this systematic
procedure for documenting the annual sizing of the fleet. We found no USTRANSCOM
documentation to support the determination of the number of chartered and organic
vessels needed to support DoD requirements on an annual basis.

Annual Sizing of the Fleet Management and Oversight
USTRANSCOM has not issued policy and guidance for monitoring the annual sizing of
the sealift capability fleet of charter and organic vessels to support DoD strategic sealift
requirements. Written policy concerning the procedures for performing the annual sizing
of the fleet is limited to DoD policy. According to USTRANSCOM officials, the annual
sizing of the fleet was not conducted during FY 2008 because it was addressed on a
continuous basis throughout the course of each year. USTRANSCOM officials believed
the primary importance was to adhere to requirements as determined by DoD mobility
studies, as well as meeting more emergent Combatant Command and Service
requirements. In doing so, commercial, organic (both Navy and long-term charter), and
RRF organic vessels are considered in meeting those requirements. USTRANSCOM
personnel stated that, in accordance with Instruction 4500.57, sizing of the fleet occurs on
an ongoing basis due to continuous changes in requirements, but no formal
USTRANSCOM policy, process, or procedures exist.

Meeting Annual Sizing of Fleet Requirements
The course of action taken by USTRANSCOM in documenting a sizing of the fleet will
limit its ability for long-range planning of activities (that is, training exercises and troop
rotation/transportability) and could result in coordination problems and increase cargo
transportation costs by having smaller volumes of cargo assigned to different vessels.
The undocumented sizing procedure also reduces transparency and visibility to
USTRANSCOM’s sea transportation components (SDDC and MSC), and to the
Maritime Administration, causing ship selection and activation to potentially become a
longer process. USTRANSCOM needs to establish internal controls for monitoring and
justifying DoD’s strategic sealift capability. This will ensure that sufficient organic
(military and civil maritime) resources are available to meet Defense deployment and
essential requirements in support of our national security strategy and to meet wartime
sealift requirements. This will enable USTRANSCOM to establish a formal process for
documenting the annual sizing of United States sealift capability to support this country’s
Defense strategy, including ongoing combat operations, and to maintain the domestic
economy in wartime.




                                             19
Management Comments on the Finding
The Deputy Under Secretary did not comment on the Finding. USTRANSCOM agreed
with the finding.

Recommendation, Management Comments, and Our
Response
C. We recommend the Commander, United States Transportation Command
develop specific policy and guidance that assigns roles and responsibilities for
performance of an annual documented analysis that the DoD sealift fleet is
adequately sized to meet sealift capability for future peacetime and wartime
requirements effectively and efficiently.

USTRANSCOM Comments
USTRANSCOM agreed with Recommendation C. USTRANSCOM stated that it will
publish an annual Size of the Fleet Report in conjunction with USTRANSCOM’s annual
Ready Reserve Fleet Guidance. USTRANSCOM also noted that it will assess the best
value of long-term time charters (to include cost, schedule, and capacity) to meet
projected requirements. USTRANSCOM stated that where no activated organic vessel or
time-chartered commercial vessel is available to meet emergent requirements at the time
of booking, it will review available commercial transportation options to select the most
effective, most efficient transportation available.

Our Response
USTRANSCOM comments were responsive to the intent of Recommendation C and no
further comments are required.




                                           20
Appendix A. Scope and Methodology
We conducted this performance audit from May 2008 through June 2009, in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.
We performed audit work to evaluate the effectiveness of policies and procedures used to
ensure that activated Government-owned and-chartered vessels are used to the maximum
extent prior to procuring commercial transportation to SWA. We contacted the officials
of the Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics; USTRANSCOM; SDDC; MSC; the Maritime Administration; and the
Department of the Army (G-4). We collected, reviewed, and analyzed documents dated
June 2007 through October 2008.
We reviewed SDDC and MSC records of 249 USTRANSCOM liner, charter, and organic
ship movements covering the period of January 1, 2007, through March 31, 2008, made
in support of GWOT. We selected four ship movements valued at $16.3 million to
illustrate the cost between liner vessels versus chartered vessels. We obtained a universe
of 180 liner movements of Government cargo to and from SWA during the time frame of
January 1, 2007, through March 31, 2008, in direct support of GWOT. The liner
movements comprised 72 percent (180 of 249) of all movements in our universe.
USTRANSCOM was able to identify $195 million in cost for 81 of the 249 ship
movements covering the period of January 1, 2007, through March 31, 2008.*
We obtained cost data and performed cost comparison on a liner vessel versus a chartered
vessel to determine the best solution to carry the cargo and reviewed recommended
vessel selection through analysis and discussion with SDDC personnel. We also
reviewed the USC-5 ship contracts that were provided by management at SDDC.
We interviewed and gathered information from USTRANSCOM, MSC, and Maritime
Administration personnel who were responsible for implementing the Transportation and
Traffic Management standards within their organizations. We reviewed the policies for
selecting the most cost-efficient vessel and the policy for the annual sizing of the fleet.

Use of Computer-Processed Data
We obtained computer-processed data from SDDC and MSC relating to the liner, charter,
and organic ship movements carrying DoD cargo. The data elements included sail dates,
measurement tons of cargo, and the cost of the ship movement and were obtained from
several different information systems. We considered the data valid, meaning that the
data actually represented what we thought was being measured, based on conversations
with data users at those Components. Computer-processed data were not key evidence in


*
 USTRANSCOM was not able to provide us the costs for the remaining 168 (of 249) ship movements
because of lack of staffing and pending contractor billings of costs.


                                                21
supporting the findings and conclusions in Findings B and C. We did not verify the cost,
square footage, and measurement ton data provided by SDDC and MSC or the data we
obtained from the SDDC system.


Prior Coverage
During the last 5 years, the Department of Defense Inspector General (IG) and the
Department of the Army have issued seven reports discussing USTRANSCOM use of
commercial sealift. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2008-051, “Surface Deployment and Distribution Command
Hawaii/Guam Shipping Agreement,” February 19, 2008
DoD IG Report No. D-2008-027, “Air Force Use of Global War on Terrorism
Supplemental Funding Provided for Procurement and Research, Development, Test, and
Evaluation,” November 21, 2007

DoD IG Report No. D-2007-105, “United States Transportation Command Compliance
With DOD Policy on the Use of Commercial Sealift,” June 21, 2007

Army
Army Audit Agency, Audit Report A-2009-0035-ALR, “Customer Billing Rates – Liner
Business Shipments,” March 25, 2009

Army Audit Agency, Audit Report A-2009-0069-ALL, “Management of Shipping
Containers in Southwest Asia,” March 19, 2009

Army Audit Agency, Audit Report A-2009-0033-ALL, “Management of Shipping
Containers Southwest Asia – Afghanistan,” January 22, 2009

Army Audit Agency, Audit Report A-2009-0026-ALR, “Container Detention Billing for
the Global War on Terrorism,” January 15, 2009




                                          22
Appendix B. Management Comments on
Findings A and B and Our Response
This appendix provides our detailed response to comments from the Deputy Under
Secretary of Defense for Logistics and Materiel Readiness (responding for the
USD[AT&L]), and the Chief of Staff, USTRANSCOM regarding a draft version of the
report findings. The deputy did not specifically agree or disagree with the finding, but
did provide technical comments on two topics discussed in the finding. The deputy
provided comments on the recommendations as well as editorial comments on individual
report sections. The Chief of Staff, USTRANSCOM stated that, while he agreed with
some of the findings, USTRANSCOM highlighted those findings reached using
inaccurate information. The chief of staff further noted that his response identified data
he believes were incorrect. The complete text of those comments can be found in the
Management Comments section of this report.

Management Comments on Finding A
Deputy Under Secretary Comments on Consistency of
USTRANSCOM Policies
The deputy requested that we revise a draft report statement that USD(AT&L) and
USTRANSCOM officials were attempting to agree upon a joint interpretation of DoD
Instruction 4500.57 language. The deputy noted that USD(AT&L) and USTRANSCOM
are working together to ensure policy consistency, rather than attempting to agree upon a
joint interpretation of policy. The deputy also requested that the report be revised to
remove language about USD(AT&L) discussions with USTRANSCOM regarding
USD(AT&L) concerns to a draft of USTRANSCOM Policy Directive 24-7. The deputy
noted that the USD(AT&L) specific concerns added no value to the vessel selection
discussion and only highlighted points made in informal discussions.

Our Response
Based on the deputy’s comments, we revised the discussion on the Office of the Under
Secretary of Defense View of Vessel Selection Requirements in the final report to state
that USD(AT&L) and USTRANSCOM officials are working to ensure that
USTRANSCOM procedures are consistent with DoD Instruction 4500.57 language that
when more than one sealift alternative is available, relevant factors such as vessel
schedules, customer requirements, cost, and capacity be evaluated and documented to
support the justification for each sealift vessel selection decision. We also revised the
final report to remove some of the discussion on initially expressed concerns on the draft
of USTRANSCOM Policy Directive 24-7. Further, we considered the editorial
comments that the deputy provided to the report and made revisions where appropriate.




                                            23
USTRANSCOM Comments on Consistency of USTRANSCOM
Policies
The chief of staff stated USTRANSCOM has initiated revisions to its internal policy
directives to align with DoD Policy Directives and Instructions. This would put
documented processes in place to ensure all commercial transportation resources are
considered and utilized in the most efficient and most effective manner. The chief of
staff further stated USTRANSCOM is updating its Standard Operating Procedures to
direct that, not later than 30 days following a USTRANSCOM Force Flow Conference
(held twice each year), the USTRASCOM maritime and surface components will prepare
and present a sealift charter and liner cost proposal based upon forecasted requirements to
the Commander, USTRANSCOM. He also stated their newly instituted Fused
Operations Center will further leverage effective and efficient multi-modal distribution
operations.

Our Response
We agree with the proposed USTRANSCOM vessel selection changes and hope that
those changes will lead to greater consistency of USTRANSCOM policies with DoD
transportation guidance.

USTRANSCOM Comments on Documentation of Course of
Action Decisions
The chief of staff disagreed with the draft report example of an SDDC-recommended
vessel selection course of action for transportation of Mine Resistant Ambush Protected
Vehicles. The chief of staff noted that the draft report cited that no documentation
existed for the selection of Course of Action 2 (USTRANSCOM use of a combination of
liners and a chartered vessel) but that USTRANSCOM archives suggested that because
the vehicles were in such high demand, every available ship that could move them was
considered an option (including liner, charter, and activated Government vessels), with a
priority for on-time delivery. The chief of staff concluded SDDC worked to minimize
wait times at the ports and deliberately chose not to wait and aggregate sufficient
numbers of vehicles to justify the charter of entire vessels. Consequently, regularly
scheduled commercial liner service provided the most reliable means to meet the
Combatant Commander’s time definite delivery requirements.

The chief of staff disagreed with a draft report conclusion that while all three potential
alternatives satisfied the validated requirement, the SDDC recommended Course of
Action 2 because it supported the established USTRANSCOM commercial first policy.
The chief of staff stated that the commercial first policy is instead derived from
long-standing DoD and National Security Policy Directives, which essentially state that
the U.S.-owned commercial ocean carrier industry will be relied upon to provided sealift
in peace, crisis, and war.

The chief of staff believed that a “mock” business case analysis presented in the report,
between commercial and organic service providers, was misleading because it did not
account for operational contexts such as those with delivery of the Mine Resistant


                                            24
Ambush Protected Vehicles and did not reflect the total cost of the courses of action
being evaluated. The chief of staff further noted that organic costs described in the report
reflect only the cost to operate vessels for that specific time period. The chief of staff
stated that the commercial costs reflect the military-industry partnership to provide sealift
capability from U.S. Flag vessels, U.S. citizen crews, and access to associated global
intermodal networks, which was also worthy of consideration and was a significant cost
avoidance of having to maintain this same capability organically.

Our Response
We agree that the priority for on-time delivery to get the high-demand Mine Resistant
Ambush Protected Vehicle into SWA would be a justified reason to select the highest-
cost delivery alternative. USTRANSCOM did not include this rational, or any rational,
to justify the selection of Course of Action 2 in the official documentation to the course
of action decision. We revised the discussion in the course of action presentation to note
the subsequent USTRANSCOM reasoning to select Course of Action 2. While the
commercial first policy is derived from long-standing DoD and National Security Policy
Directives, the USTRANSCOM commercial vessel selection process does not evaluate
whether a commercial liner or a Government-chartered vessel is the most cost-effective
alternative to the extent required by DoD Directive 4500.09E and DoD Instruction
4500.57.

USTRANSCOM Comments on Commercial Cost Analysis
The chief of staff specifically questioned Table 1 and Table 2 cost comparisons of
measurement tonnage carried by selected liner and charter vessels. USTRANSCOM
officials believed the comparison should have identified the specific cargo carried and
whether that cargo was stowed as break-bulk or containerized cargo. USTRANSCOM
noted that break-bulk cargo rates varied, and provided an example of variations in rates
for light vehicles, heavy vehicles, and general cargo. The chief of staff also stated that
Table 2 compared two different types of vessels that did not permit an “apples to apples”
comparison from a cost perspective.

The chief of staff also noted that liner rates cited in the tables did not subtract a DoD
“Cash Recovery Fee” imposed in FY 2007 and 2008, and suggested that by removing the
fee from the totals would reduce the cost of the Great Land (in Table 1) from $7.4 to
$4.8 million and the cost of the Honor (in Table 2) from $4.3 to $3.1 million.

Our Response
As stated in the report, we selected one ship movement composed of similar data from
each liner and charter category in order to show an illustrative comparison of costs and
efficiencies of similar liner and charter redeployments. The examples include the actual
length of time from port of embarkation to port of debarkation, actual amount of cargo
moved, and the actual total cost of liner and charter movements. The data reviewed did
not identify the ship type, the specific cargo carried, or whether that cargo was stowed as
break-bulk or containerized cargo. The data also made no reference regarding
USTRANSCOM-charged fees applied by USTRANSCOM DoD customers for
USTRANSCOM services. According to MSC officials interviewed for this audit, the


                                             25
Government moves cargo in containers or as break-bulk shipments. If the shipments are
vehicles or other break-bulk cargo, the Government pays per measurement ton. The cost
of a liner ship is dependent on the cargo being moved. The larger the cargo (either in
measurement tons or containers), the higher the cost will be. In contrast, the cost of a
chartered ship will be the same regardless of type, amount, or weight of cargo moved
because the Government pays to charter the whole ship. Our report examples showed
that USTRANSCOM should perform cost analyses when a liner service ship and a ship
available for commercial charter are determined to be available to move cargo,
particularly in instances when the cargo requirement is larger than a specified amount.

In a discussion to the written management comments, USTRANSCOM officials stated to
us that that the USTRANSCOM “Cash Recovery Fee” was withdrawn as of
September 30, 2008, and is no longer assessed. USTRANSCOM was not responsive to
our requests for further data on the “Cash Recovery Fee.” Thus, based on the audit work
performed, we cannot support or validate the USTRANSCOM management comments
regarding additional liner cost factors. Our analysis was for illustrative purposes only to
show situations where commercial liner transportation costs could be compared to
voyage charter ships. Ship type, type of cargo, or the impact of USTRANSCOM-
assessed fees should be considered in actual USTRANSCOM analyses.

Management Comments on Finding B
The Deputy Under Secretary did not comment on Finding B. The Chief of Staff,
USTRANSCOM agreed with Finding B with further comment noted below.

USTRANSCOM Comments on SDD Administration of Liner
Contract
The chief of staff stated that USTRANSCOM records indicated that the majority of
missed RDDs were associated with cargo booked to geographic areas for which
liquidated damages did not apply. The chief of staff also noted that exchange of
liquidated damage claims with U.S. Flag commercial carriers did not incentivize the
carrier’s on-time performance. The chief of staff noted one example of USTRANSCOM
responding to a major USC carrier’s substandard performance by intentionally
withholding from the carrier more than 21,000 containers (approximately $54 million in
revenue) and instead providing the cargo to another USC carrier with significantly better,
and faster, performance. The chief of staff stated in the response to that lost revenue, the
first carrier significantly improved performance and earned back some of the business
previously lost. He further stated using this lesson learned, USTRANSCOM’s USC-6
contract abandons the “liquidated damage scheme” for a far more effective arrangement
whereby carriers are awarded business based on their performance.

Our Response
While we agree with the USTRANSCOM actions noted in the above example of carrier
substandard performance, we were not able to verify the example as the chief of staff did
not provide details or supporting documentation. We also continue to believe, as noted in
the report discussion regarding the USC-6 negotiations, that carriers with on-time



                                             26
deliveries should be rewarded with first preference on cargo bookings and receive
payment equal to the full rate, and that carriers with lower rated delivery status receive
reduced payments.




                                             27
Office of the Under Secretary of Defense for Logistics and
Materiel Readiness Comments

                                                               Final Report
                                                                Reference




                    Click to add JPEG file




                                                             Attachment not
                                                             included as
                                                             technical in nature.




                                   28
United States Transportation Command Comments




                  Click to add JPEG file




                                 29
Click to add JPEG file




               30
Click to add JPEG file




               31
                           Final Report
                            Reference




                         Page(s) 7 - 8




Click to add JPEG file




                         Page(s) 9 - 11




               32
                           Final Report
                            Reference




                         Page(s) 9 - 11




Click to add JPEG file




               33
